  .~S"VIC.,
   .~S"VI<., DEPARTMENT
              DEPARTMENTOF
                         OFHEALTH
                            HEALTH&&HUMAN
                                     HUMANSERVICES
                                           SERVICES                                      OFFCE
                                                                                         OFFICEOF
                                                                                                OFINSPECTOR
                                                                                                   INSPECTORGENERAL
                                                                                                            GENERAL
(~4"~~                                                                                    Offce
                                                                                          Officeof
                                                                                                 ofAudit
                                                                                                   Audit Service,
                                                                                                         Services,Region
                                                                                                                   Region III
                                                                                                                           III
..~~
.
( ~~
   -l4"~~

  ""..". ~
   """'",a~
                                                                                          Public
                                                                                          PublicLedger
                                                                                                 LedgerBuilding,
                                                                                                         Building,Suite
                                                                                                                   Suite316
                                                                                                                         316
                                                                                          150 S. Independence Mall Wes
                                                                                          150 S. Independence MaI  West
                                                                                          Philadelphia, PA
                                                                                          Phiadelphia,     19106-3499
                                                                                                        PA 19106-3499




                                                           JUL 152009
                                                          JUL 1 5 2009



              Report Number:
              Report Number: A-03-07-00035
                             A-03-07-00035

              Mr. Todd
              Mr. Todd Kerr
                        Kerr
              Senior Vice
              Senior Vice President
                          President and
                                    and Chief
                                        Chief Compliance
                                              Compliance Officer
                                                         Officer
              Fresenius Medical
                        Medical Care
                                 CareNorth  America
                                       Nort Amenca
                  Winter Street
              920 Winter  Street
              Waltham, Massachusetts
                        Massachusetts 02451-1457
                                       02451-1457

              Dear Mr. Kerr:
              Dear     Kerr:

              Enclosed is
              Enclosed   is the
                             theU.S.
                                U.S.Department
                                     Deparent ofofHealth
                                                    Healthand
                                                           andHuman
                                                                 HumanServices
                                                                         Services (HHS), Office
                                                                                             Office of
                                                                                                    ofInspector
                                                                                                        Inspector
              General (OIG), final report entitled "Payments for Epogen Administered at Fresenius Medical
              Care-Northeast,
              Care-Norteast,      District
                                Distnct ofof  Columbia."We
                                           Columbia."     Wewil
                                                              will  forwarda acopy
                                                                  forward      copyofofths
                                                                                        thisreport
                                                                                             reporttotothe
                                                                                                        the HHS
                                                                                                            HHS
              action official noted on the
                                        the following
                                            following page
                                                      page for
                                                            for review
                                                                 review and
                                                                        andany
                                                                             anyaction
                                                                                 actiondeemed
                                                                                         deemednecessary.
                                                                                                   necessar.

              The HHS action official will make final
                                       wil make   final determnation
                                                        determinationas
                                                                      astotoactions
                                                                             actions taken
                                                                                      taken on
                                                                                            on all
                                                                                                all matters
                                                                                                    matters reported.
                                                                                                             reported.
              We request that
                         that you
                              you respond
                                   respondtotothis
                                               ths official
                                                   official within
                                                            withn 30 days
                                                                     days from
                                                                            from the
                                                                                  thedate
                                                                                       dateof
                                                                                            ofthis
                                                                                               ths letter.
                                                                                                    letter. Your
              response should present any comments or additional information that you believe may have a
              bearing
              beanng on the final
                            final determination.
                                  determnation.

              Pursuant to the Freedom of Information Act, Act, 55 U.S.c. §§ 552,
                                                                             552, OIG
                                                                                  OIG reports generally are made
              available to the publi~
                               publiç to the extent that information    in the report is not subject to exemptions in
              the Act. Accordingly, this
                  Act. Accordingly,        report wil
                                      ths report  willbe
                                                       beposted
                                                          postedon on the
                                                                       the Internet
                                                                           Internet athttp://oig.hhs.gov.

              If you have any questions
                              questions or comments
                                           comments about
                                                       about this report, please do not hesitate to call me at
                                                              ths report,
              (215) 861-4470  or through email at Stephen.Virbitsky@oig.hhs.gov,
              (215) 861-4470 or though email at Stephen.Virbitsky(goig.hhs.gov, or   or contact
                                                                                         contact Bernard   Siegel,
                                                                                                 Bernard Siegel,
              Audit Manager,  at (215) 861-4484  or through
                     Manager, at (215) 861-4484 or though    email  at Bernard.Siegel@oig.hhs.gov.
                                                                       Bernard.Siegel(goig.hhs.gov.     Please refer
              to report number A~03-07-00035
                               A":03-07-00035 in all correspondence.

                                                              Sincerely,


                                                              j-l+L~.
                                                             J-f-~L(j~
                                                              Stephen Virbitsky
                                                              Stephen  Virbitsky
                                                              Regional Inspector
                                                              Regional  Inspector General
                                                                                  General
                                                                for Audit Services
                                                                for Audit Services


              Enclosure
              Enclosure
Page 2 -- Mr.
          Mr. Todd Kerr


Direct Reply to HHS Action
                    Action Official:
                           Offcial:

Janet Samen
Director, Division of Chronic Care Management
Center for Medicare Management (CCPG/DCCM)
Centers for Medicare && Medicaid Services
Mail Stop C5-05-07
7500 Security
      Secunty Boulevard
Baltimore, Maryland
Baltimore,  Marland 21244-1850
                      21244-1850
Janet.Samen@cms.hhs.gov
J anet.Samen (gcms.hhs.gov
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





       PAYMENTS FOR 

   EPOGEN ADMINISTERED AT

  FRESENIUS MEDICAL CARE –

        NORTHEAST, 

    DISTRICT OF COLUMBIA





                    Daniel R. Levinson

                     Inspector General 


                        July 2009

                      A-03-07-00035

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND 


Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people 65 years of age and older, people under 65 with certain disabilities,
and people of all ages with end-stage renal disease (permanent kidney failure requiring a kidney
transplant or dialysis). The Centers for Medicare & Medicaid Services administers the program.

Section 1881(a) of the Act establishes the benefits provided by Medicare Parts A and B for
individuals who have been determined to have end-stage renal disease as provided in
section 226A of the Act. Benefits include injections of Epogen, usually administered during
dialysis. Individuals diagnosed with end-stage renal disease often suffer from anemia, and
Epogen lessens the effects of anemia for those patients. Epogen doses are generally adjusted by
a physician based on a review of the patient’s medical record. For facilities that use a
preestablished dosing algorithm, a nurse may also adjust the Epogen dose to maintain an optimal
hematocrit (red blood cell) level.

As a basis for payment, section 1833(e) of the Act states: “No payment shall be made to any
provider of services or other person under this part unless there has been furnished such
information as may be necessary in order to determine the amounts due . . . .” Federal
regulations (42 CFR § 424.5(a)(6)) require providers to furnish sufficient information, upon
request, to determine whether payment is due and, if so, the amount to be paid.

Fresenius Medical Care—Northeast (Northeast), located in the District of Columbia,, is one of
more than 1,500 renal dialysis facilities operated by Fresenius Medical Care North America.
Northeast provides treatment for end-stage renal disease at 20 dialysis treatment stations. It
received payments totaling $6,579,233 for Medicare services provided from January 1, 2004,
through June 30, 2006. Of this amount, $2,298,987 was for the administration of Epogen.
During our audit period, Northeast used dosing algorithms to adjust patient Epogen doses.

OBJECTIVE

Our objective was to determine whether Northeast administered, billed, and was paid for units of
Epogen consistent with the units that were ordered by attending physicians, as reflected in
Northeast’s medical records.

SUMMARY OF FINDING

For 66 of the 100 sampled claims, Northeast administered, billed, and was paid for units of
Epogen that were consistent with the units ordered by attending physicians, as reflected in
Northeast’s medical records. However, Northeast did not meet the Medicare payment
requirements for some dates of service for 34 claims (one of the claims had multiple errors). In
those instances, we identified discrepancies in Northeast’s medical and billing records between
the units of Epogen ordered by the patients’ attending physicians and the units administered to
the patients, billed by Northeast, and paid by Medicare.



                                                i
   •	 For five claims with questioned amounts totaling $275, there were discrepancies in
      Northeast’s medical and billing records between the units of Epogen ordered by the
      attending physician and the units of Epogen administered, billed by Northeast, and paid
      by Medicare.

   •	 For 17 claims, Northeast’s medical and billing records reflected discrepancies between
      the units of Epogen ordered by patients’ attending physicians and units administered to
      patients, billed by Northeast, and paid by Medicare. For the purposes of this report, we
      considered these errors procedural because they did not result in overpayments.

   •	 For 13 claims, Northeast’s medical records reflected errors in documenting the ordering
      and administration of Epogen but not discrepancies in the quantities of Epogen ordered,
      administered, billed, or paid. For the purposes of this report, we considered these errors
      procedural because they did not result in overpayments.

The errors related to these 34 claims occurred because attending physicians and/or administering
nurses responsible for documenting and flagging the patients’ files for changes in ordered
Epogen amounts did not always follow the policy and procedures in the Fresenius Manual for
ensuring that changes in the units of Epogen ordered were properly identified and entered into
the Fresenius System. As a result, Northeast received $275 in overpayments and patients did not
always receive the amounts of Epogen ordered by attending physicians. When attending
physicians’ orders are not followed, quality of care may be affected.

RECOMMENDATIONS

We recommend that Northeast:

   •	 refund $275 in overpayments and

   •	 ensure that it follows policies and procedures that are consistent with Federal
      requirements in order to avoid discrepancies between the units of Epogen ordered by
      patients’ physicians and the units administered to the patient, billed by Northeast, and
      paid by Medicare.

FRESENIUS COMMENTS

In comments on our draft report (see Appendix), Fresenius stated that it will contact the
intermediary about refunding the $275 in overpayments and that the nursing staff will undergo a
training program to improve compliance with policies and procedures relating to the ordering
and administration of Epogen. Fresenius also brought to our attention a technical correction
regarding its algorithm policy that we have amended in the report.




                                                ii
                                                 TABLE OF CONTENTS 


                                                                                                                                   Page

INTRODUCTION........................................................................................................................1 


          BACKGROUND ...............................................................................................................1         

              Medicare ................................................................................................................1      

              Epogen Therapy for End-Stage Renal Disease Patients ........................................1 

              Medicare Requirements and Payment for End-Stage Renal Disease Services......2 

              Fresenius Medical Care—Northeast ......................................................................2                        

              Fresenius’s Policy Manual and Medical Information System ...............................2 


          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................3 

               Objective ................................................................................................................3    

               Scope......................................................................................................................3   

               Methodology ..........................................................................................................3        


FINDINGS AND RECOMMENDATIONS ..............................................................................4 


          FEDERAL REQUIREMENTS..........................................................................................5                     

               Medical Recordkeeping .........................................................................................5               

               Medicare Payment Procedures...............................................................................5                    


          CLAIMS FOR EPOGEN NOT CONSISTENT WITH PHYSICIANS’ ORDERS ..........5 

               More Units of Epogen Billed and Paid Than Ordered and Administered ............6 

               More Units of Epogen Administered, Billed, and Paid Than Ordered.................7 


          CLAIMS WITH PROCEDURAL ERRORS THAT RESULTED IN
            DISCREPANCIES.........................................................................................................7 

                Fewer Units of Epogen Administered, Billed, and Paid Than Ordered.................8 

                Fewer Units of Epogen Billed and Paid Than Ordered and Administered............8 

                Epogen Orders Did Not Support Epogen Administered........................................8 

                Epogen Dose Changed Before the Date of the Physician’s Order.........................8 

                Claim Not Correctly Billed....................................................................................9 


          CLAIMS WITH PROCEDURAL ERRORS THAT DID NOT RESULT IN 

            DISCREPANCIES.........................................................................................................9 


          FRESENIUS POLICY AND PROCEDURES NOT ALWAYS FOLLOWED..............10 


          RECOMMENDATIONS.................................................................................................11                  


          FRESENIUS COMMENTS ............................................................................................11                   


APPENDIX

          FRESENIUS MEDICAL CARE NORTH AMERICA COMMENTS


                                                                   iii
                                              INTRODUCTION 


BACKGROUND

Medicare

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people 65 years of age and older, people under 65 with certain disabilities,
and people of all ages with end-stage renal disease (permanent kidney failure requiring a kidney
transplant or dialysis). The Centers for Medicare & Medicaid Services (CMS) administers the
program.

Epogen Therapy for End-Stage Renal Disease Patients

Section 1881(a) of the Act establishes the benefits provided by Medicare Parts A and B for
individuals who have been determined to have end-stage renal disease as provided in
section 226A of the Act. Benefits include injections of Epogen, usually administered during
dialysis. 1

Individuals diagnosed with end-stage renal disease often suffer from anemia, and Epogen lessens
the effects of anemia for those patients. The initial dose of Epogen is based on an individual’s
weight and hematocrit level, a measure of the percentage of red blood cells in the blood. The
target hematocrit level for dialysis patients receiving Epogen therapy is 30 to 36 percent, which
represents a hemoglobin level of 10 to 12 grams per deciliter. 2 For dialysis patients, hematocrit
levels above 36 percent can lead to increased risk of cardiovascular complications and death. 3

Epogen doses are generally adjusted by a physician based on a review of the patient’s medical
record. Some facilities may also use a preestablished dosing algorithm. An algorithm is a
formula established by attending physicians. It requires the nurse on duty to gather information
from the patient’s medical record and determine the correct dose of Epogen to maintain an
optimal hematocrit level. Based on the algorithm, a nurse may decrease, increase, or maintain
the Epogen dose or temporarily suspend the dose for one or more treatments. Fresenius Medical
Care—Northeast (Northeast) used dosing algorithms to adjust patient Epogen doses.




1
 Epogen is an “erythropoiesis-stimulating agent,” manufactured by Amgen, which stimulates the production of red
blood cells.
2
    CMS “Medicare Claims Processing Manual,” Pub. No. 100-04, Chapter 8, section 60.4.
3
 After our audit period, the Food and Drug Administration issued a black box label warning for Epogen that
“erythropoiesis-stimulating agents (ESAs) increased the risk for death and for serious cardiovascular events when
administered to target a hemoglobin of greater than 12 [grams per deciliter] . . . .” Food and Drug Administration,
“Epogen Label,” March 9, 2007. Available at http://www.fda.gov/cder/foi/label/2007/103234s5122lbl.pdf.
Accessed on April 24, 2009.


                                                          1

Medicare Requirements and Payment for End-Stage Renal Disease Services

As a basis for payment, section 1833(e) of the Act states: “No payment shall be made to any
provider of services or other person under this part unless there has been furnished such
information as may be necessary in order to determine the amounts due . . . .” Federal
regulations (42 CFR § 424.5(a)(6)) require providers to furnish sufficient information, upon
request, to determine whether payment is due and, if so, the amount to be paid.

CMS’s “Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 8, section 10.1,
specifies that renal dialysis facilities receive a composite rate for outpatient maintenance dialysis
services. The composite rate is a comprehensive payment for dialysis services except for bad
debts, physicians’ patient care services, separately billable laboratory services, and separately
billable drugs, including Epogen. CMS contracts with fiscal intermediaries 4 to process and pay
Medicare Part B claims for Epogen administered by renal dialysis facilities. Generally, for each
patient, providers submit one bill per month, which includes the charges for up to 14 dialysis
treatments, separately billable laboratory services, and separately billable drugs, including
Epogen. Providers submitted claims that identified the total units of Epogen administered to
each patient during the billing period, not the dose of Epogen administered during each
treatment. Payments for Epogen are subject to Medicare Part B deductible and coinsurance
requirements.

Fresenius Medical Care—Northeast

Fresenius Medical Care North America (Fresenius), located in Waltham, Massachusetts, is a
wholly owned subsidiary of Fresenius Medical Care AG & Company KGaA, located in Bad
Homburg, Germany. Fresenius provides products and services for individuals with chronic
kidney failure.

Northeast, located in the District of Columbia, is one of more than 1,500 renal dialysis facilities
operated by Fresenius. Northeast provides treatment for end-stage renal disease at 20 renal
dialysis stations. It received payments totaling $6,579,233 for Medicare services provided from
January 1, 2004, through June 30, 2006. Of this amount, $2,298,987 was for the administration
of Epogen.

Fresenius’s Policy Manual and Medical Information System

To assist in its facilities’ efforts to comply with requirements under Federal and State law,
Fresenius established a medical record policy and documentation procedures in its Policy
Manual No. 138-030-040-2 (Fresenius Manual). The Fresenius Manual requires that each
facility must develop a process to identify any change in the ordered prescription drugs and enter
the change and the treatment in Fresenius’s Medical Information System (Fresenius System).
The Fresenius System prints a treatment sheet for each patient that lists selected patient

4
 During the audit period, the Medicare Part B claims we reviewed were processed and paid by fiscal intermediaries.
The Medicare Modernization Act of 2003, P.L. No. 108-173, which became effective on October 1, 2005, amended
certain sections of the Act including section 1842(a), to require that Medicare administrative contractors replace
carriers and fiscal intermediaries by October 2011.


                                                        2

information from the previous treatment, the latest results of laboratory tests, and the required
services scheduled for the day’s treatment. The Fresenius Manual requires that each scheduled
service on the treatment sheet must be initialed or signed by the administering nurse, as
completed. The completed services, as well as any changes noted, must be entered into the
Fresenius System on a timely basis.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Northeast administered, billed, and was paid for units of
Epogen consistent with the units that were ordered by attending physicians, as reflected in
Northeast’s medical records.

Scope

Our review covered 2,863 monthly claims totaling $2,298,987 for Epogen administered by
Northeast from January 1, 2004, through June 30, 2006.

We limited our review of Northeast’s internal controls to the administration and billing for
Epogen, including medical recordkeeping. The objective of our review did not require an
understanding or assessment of Northeast’s complete internal control structure. We did not
determine the medical necessity of any items or services, including Epogen.

We performed fieldwork at Northeast in the District of Columbia, and the Fresenius headquarters
in Waltham, Massachusetts.

Methodology

To accomplish our objective, we:

   •	 reviewed applicable Federal laws, regulations, and guidance related to the treatment of
      end-stage renal disease, renal dialysis facilities, and the administration of Epogen;

   •	 reviewed applicable State laws, regulations, and guidance related to Northeast’s policies
      and procedures and the Fresenius Manual;

   •	 reviewed Northeast’s policies and procedures, including the Fresenius Manual, and its
      medical recordkeeping and billing practices;

   •	 interviewed Fresenius and Northeast officials;

   •	 identified and assessed the adequacy of internal controls related to the administration of
      and billing for Epogen; and




                                                 3

   •	 identified a sampling frame of all claims in the CMS claims history file with Epogen
      administered at Northeast from January 1, 2004, through June 30, 2006, and:

       o	 selected from the sampling frame a simple random sample of 100 claims for Epogen
          totaling $77,821 and

       o	 for each sampled claim, compared the units of Epogen ordered by the Northeast
          attending physician, administered to the patient, billed by Northeast, and paid by
          Medicare to determine whether such units, as reflected in Northeast’s medical and
          billing records, were consistent with each other.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

For 66 of the 100 sampled claims, Northeast administered, billed, and was paid for units of
Epogen that were consistent with the units ordered by attending physicians, as reflected in
Northeast’s medical records. However, Northeast did not meet the Medicare payment
requirements for some dates of service for 34 claims (one of the claims had multiple errors). In
those instances, we identified discrepancies in Northeast’s medical and billing records between
the units of Epogen ordered by the patients’ attending physicians and the units administered to
the patients, billed by Northeast, and paid by Medicare.

   •	 For five claims with questioned amounts totaling $275, there were discrepancies in
      Northeast’s medical and billing records between the units of Epogen ordered by the
      attending physician and the units of Epogen administered, billed by Northeast, and paid
      by Medicare.

   •	 For 17 claims, Northeast’s medical and billing records reflected discrepancies between
      the units of Epogen ordered by patients’ attending physicians and units administered to
      patients, billed by Northeast, and paid by Medicare. For the purposes of this report, we
      considered these errors procedural because they did not result in overpayments.

   •	 For 13 claims, Northeast’s medical records reflected errors in documenting the ordering
      and administration of Epogen but not discrepancies in the quantities of Epogen ordered,
      administered, billed, or paid. For the purposes of this report, we considered these errors
      procedural because they did not result in overpayments.

The errors related to these 34 claims occurred because attending physicians and/or administering
nurses responsible for documenting and flagging the patients’ files for changes in ordered
Epogen amounts did not always follow the policy and procedures in the Fresenius Manual for
ensuring that changes in the units of Epogen ordered were properly identified and entered into


                                                4

the Fresenius System. As a result, Northeast received $275 in overpayments and patients did not
always receive the amounts of Epogen ordered by attending physicians. When attending
physicians’ orders are not followed, quality of care may be affected.

FEDERAL REQUIREMENTS

Medical Recordkeeping

As a condition for coverage during our audit period, renal dialysis facilities were required to
centralize all clinical information in each patient’s medical record in accordance with accepted
professional standards and practices (42 CFR § 405.2139). 5 The medical records were required
to be “completely and accurately documented, readily available, and systematically organized to
facilitate the compilation and retrieval of information.” Subsection (a) of 42 CFR § 405.2139
further stated that medical records must contain certain general categories of information,
including “diagnostic and therapeutic orders; observations, and progress notes; reports of
treatments and clinical findings . . . .”

Medicare Payment Procedures

As a basis for payment, section 1833(e) of the Act states that “No payment shall be made to any
provider of services or other person under this part unless there has been furnished such
information as may be necessary in order to determine the amounts due such provider or other
person under this part for the period with respect to which the amounts are being paid or for any
prior period.”

Federal regulations (42 CFR § 424.5(a)(6)) require providers to furnish sufficient information,
upon request, to determine whether payment is due and, if so, the amount to be paid.

Beginning April 1, 2006, CMS’s “Medicare Claims Processing Manual,” Pub. No. 100-04,
chapter 8, section 60.4, required that renal dialysis facilities reduce the Epogen dose by
25 percent for patients whose hematocrit reading exceeded 39 percent in the preceding month. If
the renal dialysis facility did not reduce the dose by 25 percent, CMS would reduce the
reimbursement for Epogen by 25 percent. To avoid the reduced reimbursement, the provider
was required to include a “GS” modifier on the claim to indicate that it had reduced the Epogen
dose by 25 percent. We reviewed only sample claims for the period April 1 through June 30,
2006, for compliance with this payment adjustment guidance.

CLAIMS FOR EPOGEN NOT CONSISTENT WITH PHYSICIANS’ ORDERS

For each sample claim, we compared Northeast’s medical and billing records with respect to the
units of Epogen (1) ordered by the patient’s attending physicians, (2) administered by the nurse
to the patient, (3) billed by Northeast, and (4) paid by Medicare. For five claims with questioned
amounts totaling $275, there were discrepancies in Northeast’s medical and billing records

5
 This condition for coverage was amended effective October 14, 2008. The amended condition for coverage is now
at 42 CFR § 494.170.



                                                      5

between the units of Epogen ordered by the attending physician and the units of Epogen
administered, billed by Northeast, and paid by Medicare. For two of the five claims, Northeast
billed and Medicare paid for more units of Epogen than ordered by the attending physician and
administered to the patient.

More Units of Epogen Billed and Paid Than Ordered and Administered

For two claims covering two patients, Northeast’s medical records reflected one or more
attending physicians’ orders for units of Epogen during the months reviewed. For some dates of
service, the patients’ treatment sheets reflected units of Epogen that differed from the attending
physicians’ orders. Northeast nurses administered units of Epogen printed on treatment sheets
that were more than the units ordered. Also, for two dates of service, Northeast billed for more
units of Epogen than were order or administered.

   •	 For one claim, the attending physician’s order, dated January 14, 2004, prescribed a dose
      of Epogen of 3,400 units. On March 8 the attending physician increased the dose to
      7,000 units and on March 30 increased the dose to 12,000 units. Northeast medical
      records did not include any other orders between January 14 and March 30. The patient’s
      treatment sheet reflected that the patient received 5,600 units from March 2–6, 7,000
      units from March 9–13, 9,000 units from March 16–27, and 12,000 units on March 30.
      Also, although the patient treatment sheet for March 13 reflected that the nurse
      administered 7,000 units of Epogen, Northeast billed and Medicare paid for 9,000 units
      of Epogen. In total, Northeast was overpaid $165 for 20,600 more units of Epogen than
      was ordered and administered.

       o	 For nine treatments, the patient received, Northeast billed, and Medicare paid for
          18,600 more units of Epogen, totaling $149, than was ordered.

       o	 For one treatment, Northeast billed and Medicare paid for 2,000 more units of
          Epogen, totaling $16, than ordered by the attending physician and administered to the
          patient.

   •	 For one claim, Northeast’s medical record reflected an attending physician’s order, dated
      March 19, 2004, prescribing a dose of Epogen of 1,000 units. The medical record did not
      include any other physician order between March 19 and April 30. During April, the
      month reviewed, Northeast nurses administered 1,500 units of Epogen during nine
      treatments from April 12–30. Also, on April 9, Northeast billed for 1,500 units but the
      patient’s treatment sheet reflected that only 1,000 units were administered and on April
      30, Northeast billed for 1,700 units but the patient’s treatment sheet reflected that only
      1,500 units were administered. In total, Northeast was overpaid $42 for 5,200 more units
      of Epogen than was ordered and administered.

       o	 For nine treatments, the patient received, Northeast billed, and Medicare paid for
          4,500 more units of Epogen, totaling $36, than was ordered.




                                                6

       o	 For two treatments, Northeast billed and Medicare paid for 700 more units of Epogen,
          totaling $6, than ordered by the attending physician and administered to the patient.

In total Northeast billed and Medicare paid for 25,800 units of Epogen, totaling $207, in excess
of the attending physician order.

More Units of Epogen Administered, Billed, and Paid Than Ordered

For three claims covering two patients, Northeast’s medical records contained attending
physicians’ orders that changed the units of Epogen prescribed, but an assigned staff member did
not accurately record the changes in the Fresenius System. Consequently, the doses reflected on
the patients’ treatment sheets, administered to the patients, billed by Northeast, and paid by
Medicare were more than ordered by the attending physicians.

   •	 For one claim, the attending physician’s order, dated December 23, 2005, decreased the
      dose of Epogen ordered from 29,800 to 23,100 units. However, an assigned staff
      member recorded the new dose as 23,900 units and the Fresenius System printed
      treatment sheets for seven treatments during the month reviewed that reflected the
      incorrect units of Epogen to be administered to the patients. As a result, the patient
      received, Northeast billed, and Medicare paid for 5,600 more units of Epogen, totaling
      $43, than was ordered.

   •	 For two claims the attending physician’s order, dated March 19, 2004, decreased the dose
      of Epogen ordered from 31,000 to 26,000 units. However, an assigned staff member
      recorded the new dose as 26,400 units and the Fresenius System printed treatment sheets
      for eight treatments during the months reviewed that reflected the incorrect units of
      Epogen to be administered to the patient. As a result, the patient received, Northeast
      billed, and Medicare paid for 3,200 more units of Epogen, totaling $25, than was ordered.

In total, for these two patients, Northeast was overpaid $68 for 8,800 more units of Epogen than
was ordered.

CLAIMS WITH PROCEDURAL ERRORS THAT RESULTED IN DISCREPANCIES

For 17 claims (one of the claims had two errors), Northeast’s medical and billing records
reflected discrepancies between the units of Epogen ordered by the patients’ attending physicians
and the units administered to the patients, billed by Northeast, and paid by Medicare for one or
more dates of service during the month reviewed that did not result in an overpayment and are,
for purposes of this report, considered procedural errors. For nine claims, patients received
lower doses than ordered. For four claims, Northeast billed and Medicare paid for fewer units of
Epogen than ordered and administered. For three claims, the Northeast medical records did not
have a copy of the attending physicians’ orders. For one claim, the nurse administered a higher
Epogen dose before the effective date of the attending physician’s order increasing the Epogen
dose. For one claim, Northeast billed without the appropriate modifier.




                                                7

Fewer Units of Epogen Administered, Billed, and Paid Than Ordered

For nine claims, Northeast’s medical records included attending physicians’ orders to increase
the dose of Epogen for seven claims and decrease the dose of Epogen for two claims. However,
treatment sheets following the effective dates of the physicians’ orders reflected fewer units of
Epogen than physicians ordered and nurses administered the lower doses for 1 to 12 treatments.
Northeast billed, and Medicare paid for the units of Epogen administered to the patient that were
fewer than ordered.

Fewer Units of Epogen Billed and Paid Than Ordered and Administered

For four claims, covering four patients, Northeast’s medical records included attending
physicians’ orders that prescribed that patients receive Epogen doses. For the months reviewed,
patients received the Epogen doses prescribed. For one date of service for each of the four
claims, Northeast did not bill and Medicare did not pay for the units of Epogen ordered by the
attending physicians and administered to the patients. In total, Northeast did not bill for 13,800
units of Epogen, totaling $109, that were ordered and administered.

Epogen Orders Did Not Support Epogen Administered

For three claims, the Northeast medical records did not include attending physicians’ orders that
reflected the units of Epogen administered to three patients. For all three claims, the most recent
attending physician orders in the Northeast medical records did not include the units of Epogen
administered and were dated 1 to 2 months prior to the dates the units of Epogen were
administered. The units of Epogen administered for the three claims were not the dose included
in the attending physician order prior to the most recent order in Northeast’s medical records.
Based on our review of the documentation provided, we believe that the actual attending
physician order for the units of Epogen administered were missing from Northeast’s medical
records rather than nurses administering units of Epogen exceeding the physicians’ orders.
Northeast billed, and Medicare paid for the units administered to the patients.

Epogen Dose Changed Before the Date of the Physician’s Order

For one claim, the Northeast medical record reflected that an attending physician’s order
increased the dose of Epogen for one patient. However, the treatment sheet for one treatment
preceding the effective date reflected the new dose because designated Northeast staff entered
the change in the Epogen dose in the Fresenius System with the wrong effective date. The
attending physician’s order dated April 29, 2004 increased the prescribed Epogen dose from
20,000 to 25,000 units for each treatment. However, the treatment sheet for April 27 reflected an
Epogen dose of 25,000 units and a nurse administered a dose of 25,000 units even though the
physician’s order increasing the dose was not effective until April 29. The Northeast medical
record did not reflect why the Epogen dose was changed before the physician’s order was
effective.




                                                 8

Claim Not Correctly Billed

For one claim with dates of service during April 2006, the patient had a hematocrit level higher
than 39 percent in the preceding month. On March 31, 2006, the attending physician’s order
reduced the units of Epogen prescribed from 8,000 to 6,800 units, a reduction of less than
25 percent. On April 7, 2006, the attending physician’s order reduced the units of Epogen
prescribed to 5,400 units, which resulted in an overall reduction of greater than 25 percent. CMS
required that the Epogen dose be reduced by at least 25 percent for full reimbursement. During
April 2006, Northeast administered a total of 56,800 units of Epogen and reduced the total
Epogen administered for the month by 25 percent. Although Northeast reduced the total Epogen
administered during April 2006, Northeast failed to use the “GS” modifier and CMS reduced the
payment by 25 percent. Northeast should have received $424 for the 56,800 units of Epogen
ordered and administered but instead received $318, an underpayment of $106.

CLAIMS WITH PROCEDURAL ERRORS THAT DID NOT RESULT IN
DISCREPANCIES

The District of Columbia Municipal Regulations, title 17, chapter 46, requires that “[a] licensed
physician shall maintain a record for each patient which accurately reflects the evaluation and
treatment of the patient.” (17 DCMR § 4612 (1989)). Chapter 54 describes the practice of
registered nursing to include “the administration of medications and treatment as prescribed by a
legally authorized healthcare professional licensed in the District of Columbia.” (17 DCMR §
5412 (2004)). To assist facilities in documenting compliance with Federal and State
requirements, the Fresenius Manual requires an order for all new medications or whenever a
medication dose changes, along with the signature of the ordering physician. Nurses are
responsible for ensuring that all medications provided to patients have accurately documented
physician orders. Administering nurses are required to sign or initial on the treatment sheet to
show that a medication, including Epogen, has been administered.

For 13 claims (1 of the claims had two errors), the Northeast medical records reflected errors in
documenting the ordering and administering of Epogen. However, Northeast billed for and was
reimbursed for the units ordered or administered.

   •	 For seven claims, the patient’s medical record lacked the signature/initials of the
      administering nurse, as required by Northeast’s internal policies, including those in the
      Fresenius Manual. The administering nurse administered the units of Epogen consistent
      with the attending physicians’ orders, but did not sign or initial the treatment sheets to
      document the administration of Epogen for one date of service.

   •	 For four claims, the patients’ medical records lacked the signature/initials of the attending
      physician, as required by Northeast’s internal policies, including those in the Fresenius
      Manual. The nurse updated the Fresenius System and administered the units of Epogen
      consistent with the attending physicians’ orders. Northeast billed and Medicare paid for
      the units of Epogen ordered by the attending physician and administered to the patients.




                                                9

    •	 For three claims, the patient’s medical record did not include the patient treatment sheets
       for one or more dates of service for the month reviewed. Northeast billed and Medicare
       paid for the units of Epogen ordered by attending physicians and administered to the
       patients.

FRESENIUS POLICY AND PROCEDURES NOT ALWAYS FOLLOWED

To assist in its facilities’ efforts to comply with requirements under Federal law and States’
respective Nurse Practice Acts, Fresenius established the Fresenius Manual, which includes
medical record policies and documentation procedures. The Fresenius Manual requires that each
facility develop a process to record in the Fresenius System the results of each treatment and
changes to existing treatments, including the dose of Epogen to be administered.

    •	 The Fresenius System prints a treatment sheet for the patient’s next treatment.
       Administering nurses and patient care technicians provide treatment according to
       instructions printed on treatment sheets and administering nurses must ensure that all
       medications provided to the patient have been accurately documented with signed
       attending physician orders. Section A of the Fresenius Manual, “Physician Orders,”
       states that “[p]roviding service without physician orders is in violation of nurse practice
       acts.” Accordingly, the attending physician must provide a written order for an
       administering nurse to begin a new medication or to change the dose of a medication. 6

    •	 Each facility must develop a process by which the attending physician “flags” charts that
       have new or changed orders so that authorized support personnel can identify that a
       change has occurred and enter the change in the Fresenius System. Also, the Fresenius
       Manual identifies the duties and responsibilities for accurately documenting and updating
       its Fresenius System with changes to a patient’s treatment. After entry into the Fresenius
       System, those changes will be reflected on the patient’s next treatment sheet.

    •	 Results of a patient’s treatment, documented on the treatment sheet, must not be entered
       into the Fresenius System until the treatment is completed. A treatment sheet is
       considered completed after the administering nurse has given the treatment to the patient,
       administered all medications ordered, and confirmed the completion of these tasks by
       including their initials or signatures on the treatment sheet where appropriate.

Although Northeast had controls in place as specified in the Fresenius Manual, based on our
review, Northeast personnel did not always follow all of these procedures. Attending
physicians’ orders changing the dose of Epogen were not always identified and entered into the
Fresenius System accurately or on a timely basis. Therefore, changes to the attending
physicians’ orders did not always appear on subsequent treatment sheets.

Also, attending physician orders and treatment sheets were not always signed or reflected in the
Northeast medical records.

6
 The Fresenius Manual permits a physician to provide telephone orders; however, the physician must sign the order
during the next facility visit.


                                                       10 

RECOMMENDATIONS

We recommend that Northeast:

   •	 refund $275 in overpayments and

   •	 ensure that it follows policies and procedures that are consistent with Federal
      requirements in order to avoid discrepancies between the units of Epogen ordered by
      patients’ physicians and the units administered to the patient, billed by Northeast, and
      paid by Medicare.

FRESENIUS COMMENTS

In comments on our draft report, Fresenius stated that it will contact the intermediary about
refunding the $275 in overpayments and that the nursing staff will undergo a training program to
improve compliance with policies and procedures relating to the ordering and administration of
Epogen. Fresenius also brought to our attention a technical correction regarding its algorithm
policy that we have amended in the report. Fresenius’s comments are included in the Appendix.




                                               11 

APPENDIX

                                                                                      APPENDIX
                                                                                       Page 1 of 3




                                     V
                         Fresenius Medical Care
                              North America
   June 19, 2009

   Stephen Virbitsky
   Regional Inspector General for Audit Services
   Office of Audit Services, Region III
   Public Ledger Building, Suite 316
   150 S. Independence Mall West
   Philadelphia, PA 19106·3499

   Re: Audit Draft A-03-o7-00035, Payments for Epogen Administered at
   Fresenius Medical care-Northeast, DistJict of Columbia

   Dear Mr. Virbitsky:

   Thank you for the opportunity to review and respond to your offICe's Draft
   Report.

   The results of this draft report are consistent with other Medicare claims
   reviews conducted internally by Fresenius staff (as part of Fresenius' ongoing
   compliance audit program activities) and with other external reviews such as
   CERT and PERM. Of the $77,821.00 in claims reviewed, $275 was identified
   by the audit as not eligible for Medicare reimbursement - reflecting 0.35% of
   the sampled claims. This payment error rate compares favorably to the most
   recent May 2008 3.7% CERT national paid claims error rate.

   In response to these audit findings Fresenius will take the following steps:


   OIG Audit Recommendation:

   -ensure that it follows policies and procedures that are consistent with Federal
   requirements in order to avoid discrepancies between the units of Epogen
   ordered by the patients' physicians and the units administered to the patient,
   billed by Northeast, and paid by Medicare-.

   Fresenius Corrective Action Taken or Planned:

   While the payment error rate is loW, we recognize the need for the facility to
   improve its compliance with policies and procedures relating to the ordering
   and administration of Epogen. Therefore, the clinic will take the following
   steps:
Fresenlus Medical Care North America
Corporate Headquarters: 920 Winter Street   Waltham, MA 02451·1457   (781) 699-9000
                                                                                          APPENDIX
                                                                                           Page 2 of 3




       •   All nursing staff will undergo an in-service program designed to infonn
           the staff of: (a) the statutes and regulations relating to creating and
           maintaining medical record documentation; (b) the applicable
           Fresenius polities, including but not limited to documentation of
           physician orders and documentation of care fumished while the
           computer medical record is down; (c) the responsibility of each staff
           member to confonTI to applicable statutes, regulations, and policies;
           and (d) the consequences of failing to comply with applicable
           Fresenius policies. All new nursing staff members will continue to
           undergo Fresenius training which includes the foregoing topics.
       •   Consistent with the Part 494 Conditions for Coverage (42 CFR Section
           494.110 Condition: Quality assessment and perfonnance
           improvement) for the next 12 months the facility's Quality Assessment
           and Improvement Process will review a sampling of active medical
           records to monitor improved compliance with applicable Fresenius
           medical record documentation policies.
       •   The 2010 Fresenius Compliance Audit program will include a review of
           (a) the training activity above, to ensure that all affected employees
           were trained; (b) the (quality improvement process) to ensure that the
           aforementioned reviews occurred; and (c) an assessment of whether
           the training and monitoring has been effective in causing the facility to
           confOnTI to applicable Fresenius policies.

OIG Audit Recommendation:

"refund the $275 in overpayments~

Fresenius Corrective Action Taken or Planned:

   •   Given the age of these claims, we will contact the intennediary to
       determine the process to repay overpayments.


Finally, I note that in the Background section of the Introduction, the audit states:

       "Some facilities may also use a preestablished dosing algorithm. The
       algorithm is a fonnula established by the facility Medical Director and
       ordered by the physician:

At Fresenius Medical Care clinics, while the facility Medical Director and
Governing Body review and approve algorithms ordered by staff physicians, it is
the staff physician (and not the medical director) who establishes the algorithm
for the staff physician's patients. While often all physicians at the clinic (including
the staff physician who serves as medical director) agree 10 use a single

Fresenius Medical Care North Ameri~
Corporate Headquarters:   920 Winter Street   Waltham, MA 02451·1451    (181) 699-9000
                                                                                        APPENDIX
                                                                                         Page 3 of 3 





algorithm, it is the staff physician rather than the medical director who establishes
an algorithm for a particular patient.

Sincerely,




Todd Kerr
Senior Vice President and Chief Compliance Officer
Fresenius Medical Care North America
920 Winter Street
Waltham, MA 02451




Fresenfus Medical Care North America
Corporate Headquarters:   920 Winter Street   Waltham, MA 02451-1457   (781) 699-9000
